                                                                      AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
RESTORATION PROGRAM GRANTS
Awarded to the District of Columbia, Department of the Environment,
From October 1, 2009, Through September 30, 2011




Report No.: R. R-GR-FWS-0006-2013                                     July 2013
                                                                                         July 30, 2013
Memorandum

To:            Daniel M. Ashe
               Director, U.S. Fish and Wildlife Service

From:          Hannibal M. Ware
               Eastern Regional Manager for Audits, Inspections, and Evaluations

Subject:       Final Audit Report – U.S. Fish and Wildlife Service Wildlife and Sport Fish
               Restoration Program Grants Awarded to the District of Columbia, Department of
               the Environment, From October 1, 2009, Through September 30, 2011
               Report No. R-GR-FWS-0006-2013

        This report presents the results of our audit of costs claimed by the District of Columbia
(District), Department of the Environment (Department) under grants awarded by the U.S. Fish
and Wildlife Service (FWS). FWS provided the grants to the District under the Sport Fish
Restoration Program. The audit included claims totaling $2.9 million on eight grants that were
open during the District’s fiscal years that ended September 30, 2010, and September 30, 2011
(see Appendix 1). The audit also covered the Department’s compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of fishing
license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $11,039, representing improper leave
charges of $10,155 and out-of-period costs of $884, charged to Program grants. In addition, the
Department did not eliminate duplicate fishing licenses from the annual certification, may have
potentially diverted license revenues of $6,000, and did not maintain adequate control over
equipment.

        We provided a draft report to FWS for a response. In this report, we summarize the
Department’s and FWS’s responses, as well as our comments on the responses. Appendix 3 lists
the status of the recommendations.

        Please provide us with a corrective action plan based on our recommendations by
October 28, 2013. The plan should include information on actions FWS and the Department have
taken or are planning to take to address the recommendations, the target dates and title(s) of the
official(s) responsible for implementation, and verification that FWS headquarters officials
reviewed and approved of the actions taken or planned by the Department.




                          Office of Audits, Inspections, and Evaluations | Herndon, VA
       Please address your response to:

                      Hannibal M. Ware
                      Eastern Regional Manager
                      for Audits, Inspections, and Evaluations
                      U.S. Department of the Interior
                      Office of Inspector General
                      Eastern Region
                      381 Elden Street, Suite 1100
                      Herndon, VA 20170

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

        If you have any questions regarding this report, please contact Debra Darby, audit team
leader, at 703-487-5345, or me at 703-487-8011.


cc: Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background.......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 2
Results of Audit ...................................................................................................... 4
   Audit Summary ................................................................................................... 4
   Findings and Recommendations.......................................................................... 4
Appendix 1 ............................................................................................................ 11
Appendix 2 ............................................................................................................ 12
Appendix 3 ............................................................................................................ 13
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States 2 to restore, conserve, manage, and enhance their
sport fish and wildlife resources. Federal regulations, however, exclude the
District from participating in programs under the Pittman-Robertson Wildlife
Restoration Act. 3 As a result, only the Dingell-Johnson Sport Fish Restoration
Act applies. The Acts and Federal regulations contain provisions and principles
on eligible costs and allow FWS to reimburse States up to 75 percent of the
eligible costs incurred under the grants. The Acts also require that hunting and
fishing license revenues be used only for the administration of the States’ fish and
game agencies. Finally, Federal regulations and FWS guidance require States to
account for any income earned using grant funds.

Objectives
We conducted this audit to determine if the District of Columbia (District),
Department of the Environment (Department)—

    •    claimed the costs incurred under the Program grants in accordance with
         the Acts and related regulations, FWS guidelines, and grant agreements;
    •    used District hunting and fishing license revenues solely for fish and
         wildlife program activities; and
    •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $2.9 million on the eight
grants open during the District fiscal years (FYs) that ended September 30, 2010,
and September 30, 2011 (see Appendix 1). We report only on those conditions
that existed during this audit period. We performed our audit at the Department’s
office in Washington, DC, and visited the Aquatic Resources Education Center
(see Appendix 2). We performed this audit to supplement—not replace—the
audits required by the Single Audit Act Amendments of 1996 and by Office of
Management and Budget Circular A-133.




1
  16 U.S.C. §§ 669 and 777, as amended, respectively.
2
  The Acts define the term “State” to include the Commonwealths of Puerto Rico and the Northern Mariana
Islands, the District of Columbia, and the territories of Guam, the U.S. Virgin Islands, and American Samoa.
3
  50 C.F.R. § 80.2(b).




                                                                                                           1
Methodology
We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used fishing license revenues solely
       for the administration of fish and wildlife program activities; and
   •   determining whether the District passed required legislation assenting to
       the provisions of the Act.

We also identified the internal controls over transactions recorded in the labor-
and license-fee accounting systems and tested their operation and reliability.
Based on the results of initial assessments, we assigned a level of risk to these
systems and selected a judgmental sample of transactions for testing. We did not
project the results of the tests to the total population of recorded transactions or
evaluate the economy, efficiency, or effectiveness of the Department’s operations.

We relied on computer-generated data for other direct costs and personnel costs to
the extent that we used these data to select Program costs for testing. Based on our
test results, we either accepted the data or performed additional testing. For other
direct costs, we took samples of costs and verified them against source documents
such as purchase orders, invoices, receiving reports, and payment documentation.
For personnel costs, we selected Department employees who charged time to
Program grants and verified their hours against timesheets and other supporting
data.

Prior Audit Coverage
On February 24, 2010, we issued “Audit on U.S. Fish and Wildlife Service
Wildlife and Sport Fish Restoration Program Grants Awarded to the District of
Columbia, Department of the Environment, From October 1, 2006 through
September 30, 2008” (No. R-GR-FWS-0010-2009). We followed up on all
recommendations in the report and found that the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management and Budget, considered



                                                                                  2
five recommendations resolved and implemented and five recommendations
resolved but not implemented.

We reviewed single audit reports and comprehensive annual financial reports for
FYs 2010 and 2011. None of these reports contained any findings that would
directly affect the Program grants.




                                                                                  3
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, the following conditions that resulted in our
findings, including questioned costs totaling $11,039.

   A. Questioned Costs

       1. Questioned Payroll Costs. The Department improperly charged
          annual leave expenses totaling $10,155 (Federal share) for two
          employees to Program grants.
       2. Out-of-Period Costs. The Department charged a Program grant $884
          (Federal share) for travel costs incurred outside the grant period.

   B. Potential Diversion of License Revenues. The Department was unable to
      provide documentation to support $6,000 in telephone charges using
      license revenue.

   C. Overstated License Certification. The Department did not eliminate
      duplicate license holders from its annual license certification to FWS.

   D. Inadequate Equipment Management. The Department did not maintain
      adequate control over equipment.

Findings and Recommendations
A. Questioned Costs—$11,039

   1. Payroll Costs—$10,155

The payroll system used by the Department has the capability to record time that
employees spend on projects funded by Program grants. Federal regulations
require an equitable distribution of costs based on the benefits provided for
employees that work on multiple projects.

The Code of Federal Regulations (2 C.F.R. § 225, Appendix B, Section 8.h(4))
states that “where employees work on multiple activities or cost objectives, a
distribution of their salaries or wages will be supported by personnel activity
reports.” The regulations (2 C.F.R. § 225, Appendix B, Section 8.h(5)(e)) also
note that budget estimates or other distribution percentages determined before the
services are performed do not qualify as support for charges to Federal awards.
Two of the Department’s administrative assistants worked on the Administration
and Coordination of Wildlife Program Activities State Wildlife Grant (SWG) and


                                                                                   4
Sport Fish Restoration Coordination and Administration under grants F-1-C-25
and F-1-C-26, both of which were funded by FWS grants.

All leave costs for the administrative assistants were charged to grants F-1-C-25
and F-1-C-26 even though they also worked on and charged time to SWG.
Department officials instructed the assistants to charge all hours worked to one
grant; the assistants charged the Sport Fish Restoration Coordination and
Administration grant and then were later informed to charge all of their time to
SWG.

The assistants’ leave costs were programmed into the payroll system to charge
grants F-1-C-25 and F-1-C-26. A Department financial manager, however,
explained that when the timesheet coding was changed to charge the assistants’
time to the SWG grants, the code to charge leave expenses to SWG was not
changed. As a result, we question the leave costs of $5,378 charged to F-1-C-25
and $4,777 charged to F-1-C-26, totaling $10,155 that should have been charged
to SWG.

In addition, an associate director charged all of his time for FY 2011 to grant F-1-
C-26, even though he supervises employees and programs of other grants. As a
comparison, he charged 38 percent of his time to SWG in FY 2010.

 Recommendations

 We recommend that FWS:

    1. Resolve the questioned costs totaling $10,155; and

    2. Ensure the Department’s payroll expenses are properly supported by
       personnel activity reports and reflect actual time worked on program
       grants.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented.




                                                                                    5
   2. Out-of-Period Costs—$884

The Department charged out-of-period costs, or costs claimed that were incurred
outside the grant period, of $884 to grant F-2-R-24. A Department official
prepared a journal entry charging the grant for Division of Fisheries and Wildlife
(Division) travel costs incurred before December 31, 2008, even though the grant
period was January 1, 2009, to December 31, 2009.

The Code of Federal Regulations (43 C.F.R. § 12.63(a)) states that where a
funding period is specified, a grantee may only charge to the award costs resulting
from obligations of the funding period.

The regulations (2 C.F.R. § 225, Appendix A, Sections C.1.a, b, and j) also state
that to be eligible for reimbursement under the Wildlife and Sport Fish
Restoration Program, grant expenses must be reasonable, allowable, allocable,
and adequately supported.

We questioned out-of-period costs of $884 charged to grant F-2-R-24 for
ineligible costs that did not benefit the Program.

Recommendation

We recommend that FWS work with the Department to resolve the
questioned costs totaling $884 to Program grant F-2-R-24.


Department Response
Department officials concurred with the finding and recommendation.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation resolved but not implemented.

B. Potential Diversion of License Revenues

Under the Sport Fish Restoration Program, the Department must use revenue from
the sale of fishing licenses to administer its fish and wildlife program. We found
an unsupported charge to the Fishing License Fund of $6,000 in FY 2010 for a
telephone expense. The Department could not provide the basis or methodology
for the expense allocation or identify any benefit to fish or wildlife programs.

The Code of Federal Regulations (50 C.F.R. § 80.4) requires that revenues from
license fees paid by hunters and anglers be used only for the administration of the


                                                                                    6
State fish and wildlife Department. A diversion of license fee revenues occurs
when any portion of the license revenues is used for any purpose other than the
administration of the fish and wildlife Department.

The Department did not obtain supporting documentation or review the journal
entry to ensure the expense was for fish and wildlife purposes. As a result, we are
classifying the $6,000 charge as a potential diversion of license revenue.

Recommendation

We recommend that FWS work with the Department to resolve the potential
diversion of license revenue of $6,000.


Department Response
Department officials disagreed with the finding and recommendation.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation unresolved.

C. Overstated License Certification

All States provide a certified count of hunting and fishing license sales to FWS
each year. FWS uses the license certifications to determine the amount of
Program funds to be apportioned to each State.

The Department completed and submitted annual license certifications for
calendar years 2009 and 2010. The Department used both manual and electronic
systems to record sales of fishing licenses and was unable to provide
documentation to ensure that duplicate license holders were eliminated in the
annual certifications.

The regulations (50 C.F.R. Subpart D § 80.31(b)(3)) state that fish and wildlife
agencies are responsible for eliminating multiple counting of the same individuals
in the information certifying the number of paid license holders.

Department officials were unaware of the requirement and of existing policies and
procedures to eliminate duplicate license holders. In addition, they did not have a
complete database that could be analyzed for duplicates.

While the District received the minimum annual apportionment of funds, the
Department could not ensure that the licenses sold and reported in its annual


                                                                                   7
license certifications were accurate and based only on the sale of eligible fishing
licenses.

For the calendar year 2011 reporting period, the Department implemented a
database of fishing license holders, including names and addresses from copies of
licenses sold by vendors. Department officials stated that they now have the
ability to query the system to eliminate duplicate license holders.

 Recommendation

 We recommend that FWS work with the Department to eliminate duplicate
 license holders from the license certification.


Department Response
Department officials disagreed with the finding and recommendation.

FWS Response
FWS regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendation unresolved.

D. Inadequate Equipment Management

Federal and District regulations require grantees to maintain adequate control over
equipment. The District maintains the Fixed Asset System (FAS) for its
equipment, but the information included in the FAS is incomplete and inaccurate.
In response to our prior audit report, the Department implemented a separate
database listing of its equipment maintained by the Division. The Division’s
database, however, is also inaccurate. We identified that—

   •   a boat trailer and a push net were not on the inventory listing;
   •   of the 25 equipment items on the inventory listing selected for review, 20
       items were missing specific data that is required, such as cost, acquisition
       date, and the assigned property tag number; and
   •   16 of the 25 items reviewed did not have property tags.

In addition, Division personnel incorrectly coded three equipment purchases to
the wrong object codes. As a result, the District’s fixed assets specialist did not
include the items in the FAS. These items were a water-monitoring meter, a
trailer, and marine electronics bought with the Division’s purchase card.

Although the District hired a contractor to conduct a citywide inventory of
capitalized equipment costing over $5,000, the contractor did not inspect any of


                                                                                      8
the Division’s assets. The Division has few items, other than boats and vehicles,
that fall into the capitalization category. Equipment such as computers and other
sensitive items are also required to be included in the inventory listing.

The Division’s Federal aid coordinator conducted one physical inventory in
December 2011 but did not update the Division’s inventory listing to include the
data required to be recorded for each asset, such as property tag numbers. In
addition, items missing property tags were not identified so that tags could be
obtained and affixed.

The Code of Federal Regulations (50 C.F.R. § 80.18 and 43 C.F.R. § 12.72)
requires that equipment purchased with Program funds must be used only for
Program activities and must be identified and controlled in order to properly
manage the property.

The Office of the Chief Financial Officer Financial Policies and Procedures
Manual, Chapter V General Accounting policies and procedures, subsections
1020.302 and 1020.303, define items required to be managed by the FAS.

Subsections 1020.306 and 1020.605, “Fixed Asset Stewardship Procedures,”
require the steward to ensure that specific information is entered to establish an
asset in DC’s FAS, including—

   •   the property tag number;
   •   a description;
   •   the location, including the address, building, and room number;
   •   the acquisition date;
   •   the purchase document number to trace to the invoice;
   •   the cost; and
   •   the steward’s name.

Division personnel are not following the District’s policies and procedures
requiring specific details of equipment acquisitions to be entered into the
inventory listing and ensuring that property tags are affixed to items. As a result,
the Department may be at risk of losing control over equipment, and FWS has no
assurance that equipment purchased with Program funds is being used for its
intended purpose.




                                                                                     9
Recommendations

We recommend that FWS work with the Department to ensure that the
Division:

    1. Properly tags all of its equipment;

    2. Accurately identifies and records all capitalized and inventoried
       property items in the FAS; and

    3. Accurately identifies and records all required property items in the
       Division’s inventory listing in accordance with the District’s policy until
       the FAS complies with the District’s policies and procedures.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
We consider the recommendations resolved but not implemented.




                                                                                 10
Appendix 1
                    District of Columbia
              Department of the Environment
          Financial Summary of Review Coverage
        October 1, 2009, Through September 30, 2011

      Grant        Grant      Claimed      Questioned
     Number       Amount       Costs         Costs
     F-1-C-25     $273,507      $296,940        $5,378
     F-1-C-26       325,125      365,839         4,777
     F-2-R-24       546,165      513,097           884
     F-2-R-25       602,398      392,527
     F-2-R-26       628,925      518,006
     F-4-E-23       821,110      838,534
     F-4-E-24       546,165
     F-6-D-18       250,000       30,414
     Total       $3,993,395   $2,955,357       $11,039




                                                         11
Appendix 2
               District of Columbia
          Department of the Environment
                   Sites Visited

                 Headquarters
                 Washington, DC

        Aquatic Resources Education Center
                  Anacostia Park
                 Washington, DC




                                             12
Appendix 3
                          District of Columbia
                     Department of the Environment
             Status of Audit Findings and Recommendations

Recommendations                Status                   Action Required
                                                 Based on the FWS Response,
                                                   the corrective action plan
                                                 should include information on
                                                  actions taken or planned to
                                                    address the recommen-
                                                    dations, target dates and
                          FWS management
                                                     title(s) of the official(s)
                         concurred with the
                                                   responsible for implemen-
                              findings and
                                                  tation, and verification that
                        recommendations but
                                                   FWS headquarters officials
A.1.1, A.1.2, A.2, B,   additional information
                                                 reviewed and approved of the
C, D.1, D.2, and D.3        is needed. The
                                                  actions taken or planned by
                        Department disagreed
                                                         the Department.
                           with findings and
                                                 We will refer the recommen-
                         recommendations B
                                                    dations not resolved or
                                 and C.
                                                 implemented at the end of 90
                                                 days (after October 28, 2013)
                                                 to the Assistant Secretary for
                                                    Policy, Management and
                                                    Budget for resolution or
                                                  tracking of implementation.




                                                                              13
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
